AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

   SOUTHWEST BORDER PROSECUTION

    INITIATIVE FUNDING RECEIVED BY

         KLEBERG COUNTY, TEXAS




        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-60-12-015

               July 2012

           AUDIT OF OFFICE OF JUSTICE PROGRAMS

             SOUTHWEST BORDER PROSECUTION

             INITIATIVE FUNDING RECEIVED BY

                  KLEBERG COUNTY, TEXAS


                        EXECUTIVE SUMMARY



       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to Kleberg County, Texas. From fiscal years (FYs) 2007 through 2011,
Kleberg County received SWBPI funding totaling $1,072,870 on a pro-rata
basis.

       Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas
and Organized Crime Drug Enforcement Task Forces. Many U.S. Attorneys
have developed prosecution guidelines that govern the most common
violations of federal law. These prosecution guidelines are used by law
enforcement agencies to determine whether to file a case in federal, state,
or county court. As a result, many federally initiated cases occurring near
the southwest border are referred to the state or county for prosecution.

       The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. The SWBPI reimburses the eligible
applicants for costs incurred during prosecution for three major categories
based on the types of services provided: (1) prosecution only, (2) pre-trial
detention only, and (3) both prosecution and pre-trial detention.
Reimbursements received from SWBPI funding may be used by applicant
jurisdictions for any purpose not otherwise prohibited by federal law. For
FY 2012, Congress appropriated $10 million for Border Prosecution
Initiatives to reimburse state, county, parish, tribal, or municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices.

      The objective of our audit was to determine if the SWBPI
reimbursements received by Kleberg County were allowable, supported, and
in accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI.
      We found that Kleberg County claimed and was reimbursed for some
cases that were ineligible under the SWBPI guidelines resulting in questioned
costs totaling $2,900 for 24 cases. These cases were submitted under both
the prosecution and pre-trial detention category, but did not meet the
requirements for pre-trial detention.

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




                                      ii
                                      TABLE OF CONTENTS

INTRODUCTION ................................................................................. 1

Background ................................................................................ 1


FINDINGS AND RECOMMENDATIONS ................................................. 5

Case Eligibility ............................................................................. 5

Accuracy of Reimbursements ........................................................ 6


Recommendations.............................................................................. 7


APPENDIX I: OBJECTIVES, SCOPE AND METHODOLOGY ..................... 8


APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS ................ 9


APPENDIX III: DETAILS OF QUESTIONED COSTS ............................. 10


APPENDIX IV: KLEBERG COUNTY RESPONSE TO THE DRAFT

   REPORT ..................................................................................... 11


APPENDIX V: OJP RESPONSE TO THE DRAFT REPORT ...................... 13


APPENDIX VI: OIG ANALYSIS AND SUMMARY OF ACTIONS

   NECESSARY TO CLOSE REPORT ................................................. 16

           AUDIT OF OFFICE OF JUSTICE PROGRAMS 

             SOUTHWEST BORDER PROSECUTION

             INITIATIVE FUNDING RECEIVED BY

                  KLEBERG COUNTY, TEXAS


                            INTRODUCTION


      The Office of the Inspector General, Audit Division, has completed an
audit and issued a report on the Southwest Border Prosecution Initiative
(SWBPI) funding awarded by the U.S. Department of Justice, Office of
Justice Programs (OJP) to Kleberg County, Texas. The objective of the audit
was to determine whether the SWBPI reimbursements received by Kleberg
County were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the SWBPI guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002 to support state and local prosecutions along the
southwest border.

      For FY 2012, Congress appropriated $10 million in funding for the
border prosecutor initiative to reimburse state, county, parish, tribal, or
municipal governments for costs associated with the prosecution of criminal
cases declined by local U.S. Attorneys’ offices. Reimbursements received
from the SWBPI funding may be used by applicant jurisdictions for any
purpose not otherwise prohibited by federal law; however, the direct support
and enhancement of jurisdictions’ prosecutorial and detention services are
encouraged.



                                      1

      The SWBPI reimburses the eligible applicants for costs incurred during
prosecution for three major categories based on the types of services
provided: (1) prosecution only, (2) pre-trial detention only, and (3) both
prosecution and pre-trial detention. For cases disposed of between FY 2002
and the second quarter of FY 2008, each eligible case submitted for
prosecution or pre-trial detention services only received the following
maximum reimbursement, based upon the length of disposition and the
availability of funds:

  •   $1,250 for each case of 1 to 15 days,

  •   $2,500 for each case of 16 to 30 days,

  •   $3,750 for each case of 31 to 90 days, and

  •   $5,000 for each case over 90 days.

      For cases disposed of between FY 2002 and the second quarter of
FY 2008, each eligible case submitted for both prosecution and pre-trial
detention services submitted for reimbursement, received the following
maximum reimbursement based upon the length of disposition and the
availability of funds:

  •   $2,500 for each case of 1 to 15 days,

  •   $5,000 for each case of 16 to 30 days,

  •   $7,500 for each case of 31 to 90 days, and

  •   $10,000 for each case over 90 days.

      For cases disposed between FY 2002 and the second quarter of
FY 2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant was required to be detained
overnight, i.e., from one calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must be detained for at least 24 hours.




                                      2

       For cases disposed between the third and fourth quarter of FY 2008,
jurisdictions may only receive reimbursements for the actual number of
prosecutor hours charged to the case and the number of days the defendant
was detained prior to the disposition of the case. Prosecutors’ salaries
charged to the case were based on the average hourly rate for the county’s
prosecutors and cannot include fringe benefits. Detention reimbursements
were based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

       For cases disposed after FY 2008, jurisdictions may receive
reimbursements based on the personnel costs associated with prosecuting a
case, including the personnel costs for prosecutors, paralegals, judges,
judicial staff, public defenders, clerical staff and indigent screening
personnel. The allowable costs are then allocated to each case based on the
percentage of eligible SWBPI cases prosecuted by the jurisdiction out of the
total number of cases prosecuted during the period. This percentage is
calculated separately for misdemeanor cases and felony cases, and then is
multiplied by the total allowable misdemeanor and felony costs to arrive at
total allowable prosecution costs per case. Detention reimbursements are
still based on the number of days the defendant was detained prior to the
disposition and are calculated using the published federal detention per diem
rate for the jurisdiction.

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The pro-rata reimbursement percentages for Kleberg County are
shown in Exhibit 1.




                                      3

EXHIBIT 1: PRO-RATA REIMBURSEMENT BASIS TO KLEBERG COUNTY

                                                                           PERCENTAGE
  REPORTING PERIOD           START DATE              END DATE              REIMBURSED
 FY07, 1st Quarter            10/01/06               12/31/06                52.34%
 FY07, 2nd Quarter            01/01/07               03/31/07                52.45%
 FY07, 3rd Quarter            04/01/07               06/30/07                49.03%
 FY07, 4th Quarter            07/01/07               09/30/07                57.26%
 FY08, 1st Quarter            10/01/07               12/31/07                86.97%
 FY08, 2nd Quarter            01/01/08               03/31/08                71.63%
 FY08, 3rd Quarter            04/01/08               06/30/08               111.05%
 FY08, 4th Quarter            07/01/08               09/30/08               109.15%
 FY09, All Quarters           10/01/08               09/30/09               100.00%
 FY10, All Quarters           10/01/09               09/30/10               100.00%
Source: Office of Justice Programs

     Kleberg County received reimbursements from SWBPI funds totaling
$1,072,870 from FYs 2007 through 2011, as shown in Exhibit 2.

EXHIBIT 2: REIMBURSEMENTS MADE TO KLEBERG COUNTY 1
    REPORTING                                             AMOUNT               AMOUNT
                        START DATE       END DATE
      PERIOD                                             REQUESTED           REIMBURSED
 FY07, 1st Quarter       10/01/06        12/31/06         177,500          $     92,895
 FY07, 2nd Quarter       01/01/07        03/31/07          65,000                34,091
 FY07, 3rd Quarter       04/01/07        06/30/07         166,250                91,325
 FY07, 4th Quarter       07/01/07        09/30/07         236,250               135,287
 FY08, 1st Quarter       10/01/07        12/31/07         170,000               147,851
 FY08, 2nd Quarter       01/01/08        03/31/08         340,000               243,528
 FY08, 3rd Quarter       04/01/08        06/30/08          12,324                13,685
 FY08, 4th Quarter       07/01/08        09/30/08          10,841                11,832
 FY09, All Quarters      10/01/08        09/30/09         132,313               132,313
 FY10, All Quarters      10/01/09        09/30/10         170,063               170,063
 TOTAL                                                                     $ 1,072,870
Source: Office of Justice Programs




       1
          Throughout the report, the differences in the total amounts are due to rounding, in
that the sum of individual numbers prior to rounding reported may differ from the sum of the
individual numbers rounded.

                                              4

               FINDINGS AND RECOMMENDATIONS

      We found that Kleberg County claimed and was reimbursed for
      cases that were ineligible under the SWBPI guidelines.
      Specifically, we found cases that were claimed under both
      prosecution and pre-trial detention category that did not meet
      the requirements for pre-trial detention. As a result, we
      identified questioned costs totaling $2,900.

Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas and Organized Crime Drug
Enforcement Task Forces. The SWBPI guidelines further state that, “referred
cases are eligible regardless of whether the case was formally declined and
referred by a U.S. Attorney, or through a blanket federal declination-referral
policy, an accepted federal law enforcement practice, or by federal
prosecutorial discretion.” Federally referred cases that are declined and not
prosecuted by the state or local government are ineligible for
reimbursement.

       We analyzed the 488 cases submitted for reimbursement by Kleberg
County to determine whether the cases were eligible for reimbursement
under the requirements of the SWBPI guidelines. In addition, we reviewed
all cases submitted to determine if: (1) reimbursements were submitted in
the period the cases were disposed, (2) the cases met the pre-trial detention
requirements, (3) there were duplicates or concurrently prosecuted cases,
(4) cases were submitted in the correct disposition category, (5) the
approved federal detention rate was used to calculate the detention
reimbursement claimed, (6) cases had federal law enforcement involvement,
and (7) the approved prosecution award was used to calculate the
prosecution reimbursement claimed.

      Based on our review, we found that Kleberg County received SWBPI
funds totaling $2,900 for 24 cases that were not eligible for reimbursement
pursuant to the SWBPI guidelines. A detailed listing of the cases claimed by
Kleberg County that were not eligible for reimbursement is provided in

                                      5

Appendix III. Specifically, we found that Kleberg County received excess
reimbursements totaling $2,900 for 24 cases that were submitted under
both the prosecution and pre-trial detention category that did not meet the
requirements for pre-trial detention.

Accuracy of Reimbursements

      Kleberg County requests reimbursements from SWBPI funds through
an on-line application available on the Bureau of Justice Assistance website.
Pursuant to the SWBPI guidelines, for FYs 2002 through 2007 eligible cases
were reimbursed using a uniform payment per case schedule based on the
length of disposition, which is calculated from the date of the suspect’s
arrest through case resolution. Resolution of the case is defined as
dismissal, conviction, or plea.

      We reviewed the reimbursement requests submitted by Kleberg
County for FY 2007 to determine if the number of cases claimed for each
disposition category was supported by the detailed case listings obtained
during fieldwork. 2 Based on our review, we determined that the
reimbursement requests materially reconciled with the master case listing.




       2
          We did not reconcile cases submitted to OJP after FY 2007 because starting in the
first quarter of FY 2008, SWBPI recipients were required to provide OJP a detailed listing of
cases for which they were requesting reimbursement. Prior to FY 2008, SWBPI recipients
were only required to provide OJP the number of cases for which they were requesting
reimbursement for each disposition category.


                                              6

Recommendations

      We recommend that OJP:

1.	   Remedy the $2,900 in questioned costs received by Kleberg County for
      24 cases that were submitted under both the prosecution and pre-trial
      detention category that did not meet the requirements for pre-trial
      detention.




                                     7

                                                             APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY

      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. The
scope of our audit included reimbursements received by Kleberg County for
FYs 2007 through 2011.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested Kleberg County SWBPI activities in case eligibility and
compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

       We did not test internal controls for Kleberg County as a whole. The
Single Audit Report for Kleberg County was prepared under the provisions of
Office of Management and Budget Circular A-133 for the fiscal year ended
September 30, 2010. We reviewed the independent auditor's assessment to
identify internal control weaknesses and significant non-compliance issues
related to Kleberg County or federal programs. The auditor’s assessment
disclosed no material control weaknesses or significant non-compliance
issues related to the SWBPI. In addition, we performed testing of source
documents to assess the accuracy of reimbursement requests; however, we
did not test the reliability of the financial management system as a whole.




                                     8

                                                                        APPENDIX II

              SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS                                       AMOUNT               PAGE

Unallowable Costs:
Excess reimbursements for cases that were
  erroneously claimed as both prosecution
                                                       $2,900               6
  and pre-trial detention that did not meet
  the pre-trial detention requirement.
Total Questioned Costs: 3                              $2,900

TOTAL DOLLAR-RELATED FINDINGS                          $2,900




        3
            Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.


                                              9

                                                              APPENDIX III

                  DETAILS OF QUESTIONED COSTS

                 CASES WITHOUT 24 HOURS OF DETENTION
                                           DETENTION
                 JAIL         JAIL           DAYS       ACTUAL
               BOOKING      RELEASE        REPORTED    DETENTION    AMOUNT
  CASE NO.      DATE         DATE           TO OJP       DAYS      QUESTIONED
 CR06-0598    04/07/2006   04/07/2006        N/A          0         $ 1,839
 CR07-04981   09/13/2007   09/13/2007         1           0             50
 CR08-0016    01/12/2008   01/12/2008         1           0             50
 CR08-0062    02/28/2008   02/28/2008         1           0             49
 CR08-01091   04/03/2008   04/03/2008         1           0             49
 CR08-01222   04/15/2008   04/15/2008         1           0             49
 CR08-0165    05/17/2008   05/17/2008         1           0             49
 CR08-0410    10/30/2008   10/30/2008         1           0             45
 CR08-0416    11/08/2008   11/08/2008         1           0             45
 CR09-0051    01/29/2009   01/29/2009         1           0             45
 CR09-01331   02/26/2009   02/26/2009         1           0             45
 CR09-01332   02/26/2009   02/26/2009         1           0             45
 CR09-0316    06/15/2009   06/15/2009         1           0             45
 CR09-0346    06/22/2009   06/22/2009         1           0             45
 CR09-0347    06/22/2009   06/22/2009         1           0             45
 CR09-03542   06/26/2009   06/26/2009         1           0             45
 CR09-0510    09/14/2009   09/14/2009         1           0             45
 CR09-0511    09/14/2009   09/14/2009         1           0             45
 CR09-05771   10/22/2009   10/22/2009         1           0             45
 CR09-05774   10/22/2009   10/22/2009         1           0             45
 CR09-0641    11/29/2009   11/29/2009         1           0             45
 CR09-0642    11/29/2009   11/29/2009         1           0             45
 CR09-06662   12/12/2009   12/12/2009         1           0             45
 CR09-0673    12/17/2009   12/17/2009         1           0             45
TOTAL                                                              $ 2,900




                                     10

                                                                                                APPENDIX IV

                     KLEBERG COUNTY RESPONSE
                       TO THE DRAFT REPORT


V E ROl"ICA H ARE                                                                 KLEBI::RC C O UNTY
INSURANCE COORDINATOR
                                                                   KLEBE RG COUN1l' COURTHOUSE
(361) 59J_lJ50                                                                        700 E KLE UE RG
(36IJ593-1119FAX                                                                          P.O, BOX 72
                                                                          KI NGSV ILLE . TEXAS 78364



                                 C OUNT Y        01 K LE B ERG
                                       K I NCS vrLLF.•   T EXAS


]une21,2012


David M. S hecren
Regional Auai l M,mllger
U.s. Dcpanmcfli of Juslicc
Office   or Inspecto r General
DtlnveT Regional Audil Onice
I 120 Lincoln, Sui Ie 1500
Denver, Colorado 80203


RE:      Draft Audit Repon


Dear Mr. Shccrco,

Atlached for your review is Kleberg County's response to the Draft A udi t Repon, da led Ju ne 5,
20 12, on the Southw est norder Prosecution Initiative (SWBPl) funds that were received from the
Office of Justice Program s (OJ P).

If you have any questions o r require ad ditional infonnation, p lease con tact me a t 36 1-593- 1350.


Si ncerely.



Vcronica Hare
Insu rance Coo l'dinator




                                             11

                 KL EBE RG CO UNT Y RES PO NSE TO DRA FT AUDIT REPORT


1.    R c m ... d y th e $1,900 in 'Iues lio ne d eoHs received b y Klebe rg Co unt y fo r 24 cases Ib,.t we r e
     s ul)m in cd unde r both Ih e pro ~ccut1o n a nd pre_tri a l d et e nti o n category th a t did nor m ee t th e
     re qu irc m c uts for pre- tria l d e tc nti o n.


     Kl e berg Cou n ty concurs with recommenda ti on: T he Counl y will verify the boo k in g il od
     disposed dates to insure the proper way of reporting the pre-tri al detention services based 00
     SWBP] guidelioc.Q.




                                                         12

                                                                                               APPENDIX V
                  OFFICE OF JUSTICE PROGRAMS
                 RESPONSE TO THE DRAFT REPORT
                                                  u.s. Department of Justice
                                                  Office of Justice Programs

                                                  Office of Audit. Assessment. and Management




MEMORANDUM TO:                David M. Sheeren
                              Regional Audit Manager
                              Denver Regional Audit Office
                              Office of the Inspector General

FROM:                         Maureen A. Henneberg I / " . _ l £) 11
                              Director           Y{
                                        ) . . "V-.. ~~
SUBJECT:                      Response to the Draft Audil Report, Audit of Office of
                              Justice Programs Soulhwest Border Proseclltion Initiative
                              Funding Received by Kleberg County, Texas

The Office of Justice Programs (OJP) appreciates the opport unity to review and comment
on the Office of the Inspector General 's (OIO's) draft report, entitled "Audit of Office of
Justice Programs Southwest Border Prosecution Initiative Funding Received by Klcbcrg
County, Texas," dated June 5, 2012. We consider the subject report resolved and requesl
written acceptance of this action from your officc.

As a resul t oflhe OIO's audit of the Southwest Border Prosecution Initiative (S WBP!)
program in fiscal years (FYs) 2008 and 2010, and the Office of Audi t, Assessment, and
Management's (OAAM) review of this program in FY 2011, the Bureau of Justice
Assistance (BJA) made the following enhancements: 1) modified the SWBPI application
system to require that each prosecution case submilted by ajurisdiction for
rei mbursement contai n the case/docket number, defendant's first and last name, referring
federal agency, referred date, resolution Iype, and resolved date; 2) establ ished new
internal guidel ines 1 ensure that SWBPI reimbursements are analyzed to identify
                      0
anomalies that may indicate unallowable or unsupported paymcn ts to specific
jurisdictions; and 3) implemented a process 10 identify overlapping requests for detention
expenses between SWBPI and the Slate Criminal Alien Assistance Program.




                                             13

BJA's enhanced monitoring process ovcr SWBP! payments has resulted in increased
scrutiny, and now includes a review ofa minim um of 10% of the annual payments made
under the program. However, Klcberg County was not included in BJ A's sample of
SWBPl case file review.

The report contains one recommendation and $2,900 in questioned costs. The following
is OJP's analysis of the draft audit report recommendation. For ease ofrcview, the
recommendation is restated in bold and is followed by our response.

       We reco mme nd that OJP remedy the $ 2,900 in questioned costs received by
       Klcberg County for 24 c ases tha t were s ubmitted unde r both the prosecution
       and pre-trial detention category tha t did not meet the requi remen ts for pre­
       trial detention.

       The Office of Justice Programs agrees with the recommcndation. We will
       coordi nate with Kleberg County to remedy the $2,900 in questioned costs related
       to the 24 cases that were submiued under both the prosecution and pre-trial
       detention category that did not meet the requirements fo r pre-trial detention.

If you have any questions or require additional information, please contact Jeffery A.
Haley, Deputy Director, Audit and Review Division, 011 (202) 6 16-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Managcment

       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Joseph Husted
       Policy Adviso r
       Bureau of Justice Assistance

       Maria Anderson
       State Policy Advisor
       Bureau of Justice Assistance

       Louise Duhamel , Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

                                             2




                                             14

cc:   OlP Executive Secretariat
      Control Number 20120833




                                  3




                                  15

                                                                         APPENDIX VI

                     OFFICE OF THE INSPECTOR GENERAL

                    ANALYSIS AND SUMMARY OF ACTIONS

                       NECESSARY TO CLOSE REPORT


       The OIG provided a draft of this audit report to OJP and Kleberg
County. In its response, which is included in Appendix V of this report, OJP
states that it agrees with our recommendation and that it will coordinate
with Kleberg County to remedy questioned costs. OJP also states that “BJA’s
enhanced monitoring process over SWBPI payments has resulted in
increased scrutiny, and now includes a review of a minimum of 10% of the
annual payments made under the program. However, Kleberg County was
not included in BJA’s sample of SWBPI case file review.” We recognize the
changes that OJP made to the SWBPI program based on recommendations
provided in prior OIG reports. 4 However, questioned costs related to the
ineligible cases submitted must still be remedied. The following provides the
OIG analysis of the response and summary of actions necessary to close the
report.


   1. Resolved.	 OJP concurred with our recommendation to remedy the
      $2,900 in questioned costs received by Kleberg County for 24 cases
      that were submitted under both the prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial detention.
      OJP stated in its response that it will coordinate with the County to
      remedy the $2,900 in questioned costs related to the 24 cases that
      were submitted under both the prosecution and pre-trial detention
      categories that did not meet the requirements for pre-trial detention.

      This recommendation can be closed when we receive documentation
      that OJP remedied the $2,900 in questioned costs received by Kleberg
      County for 24 cases that were submitted under both the prosecution
      and pre-trial detention category that did not meet the requirements for
      pre-trial detention.




      4
         U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursement Program, Audit Report 08-22 (March 2008);

       U.S. Department of Justice Office of the Inspector General, Southwest Border
Prosecution Initiative Reimbursements, Audit Report 10-20 (March 2010).


                                           16

